<html>
<title> - DEPARTMENT OF HOMELAND SECURITY OVERSIGHT: TERRORISM AND OTHER TOPICS</title>
<body><pre>[Senate Hearing 108-851]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 108-851


 DEPARTMENT OF HOMELAND SECURITY OVERSIGHT: TERRORISM AND OTHER TOPICS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 9, 2004

                               __________

                          Serial No. J-108-81

                               __________

         Printed for the use of the Committee on the Judiciary

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2005

22-802 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director




                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     1
    prepared statement...........................................   112
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     3
    prepared statement...........................................   115

                                WITNESS

Ridge, Tom, Secretary, Department of Homeland Security, 
  Washington, D.C................................................     7

                         QUESTIONS AND ANSWERS

Responses of Tom Ridge to questions submitted by Senators Biden, 
  DeWine, Kohl, Leahy, Cornyn, Feingold, Kennedy, and Sessions...    33

                       SUBMISSIONS FOR THE RECORD

Border Trade Alliance, Richard Cortez, Chair, Phoenix, Arizona, 
  letter.........................................................   109
Ridge, Tom, Secretary, Department of Homeland Security, 
  Washington, D.C., prepared statement...........................   120

 
 DEPARTMENT OF HOMELAND SECURITY OVERSIGHT: TERRORISM AND OTHER TOPICS

                              ----------                              


                        WEDNESDAY, JUNE 9, 2004

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch, Chairman of the Committee, presiding.
    Present: Senators Hatch, Grassley, Specter, Kyl, Cornyn, 
Leahy, Biden, Kohl, Feinstein, Feingold, Schumer, and Durbin.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
                       THE STATE OF UTAH

    Chairman Hatch. We are here today to hold our eighth 
hearing since last fall to oversee our Government's attempts to 
protect against and respond to acts of terrorism. We heard from 
Attorney General Ashcroft yesterday, and today we are pleased 
to have Secretary Tom Ridge, the leader of our Department of 
Homeland Security.
    In the aftermath of September 11th, a new Department of 
Homeland Security was created. This was a massive undertaking, 
the likes of which this country has not seen since 1947, when 
President Truman reorganized our defense and security agencies.
    I, personally, want to thank Secretary Ridge and his 
colleagues at DHS for your efforts, sir, in improving our 
Nation's security. You are to be commended for your leadership 
and the initiatives that you have implemented--initiatives to 
increase our Nation's ability to respond in time of emergencies 
to emergencies, to enhance the security of our borders, to 
increase our ability to defend against bioterrorism, and of 
course to improve our intelligence-gathering and information 
sharing, and to integrate our local communities within our 
Nation's homeland defense efforts.
    Now, despite the daunting nature of your challenge, in just 
over a year, your department has successfully merged 22 
agencies and 180,000 employees into a single department. That 
is amazing in and of itself. You have developed and implemented 
aviation security procedures, including explosives detection 
systems. You have issued new security directives, requiring 
enhanced rail operator protocols. You have tailored the Student 
VISIT Program to ensure that students who pose no threat to our 
country are permitted entry. You have streamlined the 
information-sharing process, which is a big, big move. You have 
established a Homeland Security Operations Center aimed at 
coordinating the efforts of the Federal, State and local 
authorities. You have enhanced port security, and you have 
provided substantial assistance to those on the front lines, 
our Nation's first responders.
    By no means is this a comprehensive list of your 
accomplishments, and all would agree there is a lot more to be 
done in order to ensure the security of our homeland. Most 
recently, however, you have proven that you are a leader 
willing to take the constructive criticism and recommendations 
of others when it comes to safeguarding our great country.
    By way of example, the Office of the Inspector General 
recently issued a report recommending a number of changes to 
the Visa Waiver Program. In response, the Department of 
Homeland Security announced that by the end of September of 
this year, it will extend U.S. visit requirements to travelers 
who visit the United States from visa-waiver countries. We have 
had 93 million visitors from these countries over the past 5 
years, so naturally that is not going to be a very easy task. I 
commend you for taking this bold step forward to improve our 
visa waiver system and for working to secure this country 
against the threat of terrorists.
    I do want to take a few moments to challenge the 
administration in an area in which I think we can do much 
better, and that is bioterrorism.
    First off, let me recognize that our country is, in many 
ways, much better off to respond to various bioterrorism 
attacks than we were in the fall of 2001. Our first responders 
are much better equipped. There is much better coordination 
among the Federal, State and local Governments. We, in Utah, 
saw this firsthand during the Winter Olympics that went off so 
successfully there.
    I want to commend the administration and my colleagues in 
Congress for their work on the biofield legislation. Senators 
Gregg, Frist and Kennedy have consistently moved the ball 
forward on this issue.
    Vice President Cheney and Secretary Thompson have provided 
leadership in this area. One of the favorites of mine, Dr. Tony 
Fauci at the National Institutes of Health is coordinating 
Government, academic and private-sector scientists and, as 
always, is pushing the envelope of the scientific knowledge 
forward. Unfortunately, the results to date are simply 
inadequate. We know that there is a list of some 57 known 
bioterrorism threat agents. It is my understanding that there 
are only two--just two--FDA-approved countermeasures to these 
known threats. That is correct, just 2 of the 57 threats, have 
responses.
    And the truth of the matter is that the R&D pipeline is 
less than robust. That is one reason why Senator Lieberman and 
I have proposed bipartisan legislation whose goal is to provide 
a variety of incentives designed to stimulate private-sector 
biotechnology firms to develop new research tools, diagnostics, 
therapeutics, and vaccines.
    Our legislation includes tax incentives, intellectual 
property incentives, such as patent term restoration and 
extension of current marketing exclusivity periods and up-front 
liability negotiations. We should not let any politically 
expedient, antidrug antipathy to interfere with the attempt of 
the Lieberman-Hatch bill to unleash the creative genius of the 
private sector because that is where treatments and cures are 
going to have to come from.
    And, sure, we need to create a well-capitalized biodefense 
industry that will respond to our needs as any of these threats 
arises or evolves. Now, that is the goal of the Lieberman-Hatch 
bill. I commend my partner, Senator Lieberman, for his vision 
in this critically important area. Although the year is moving 
along, I hope in the weeks ahead to hold a hearing on some of 
the novel intellectual property and liability provisions of the 
Lieberman-Hatch bioterrorism bill.
    Now, Mr. Secretary, I hope that the administration will 
carefully review our bill and provide experts to participate in 
the hearings on that matter.
    Now, let me close by saying that I know that everyone on 
this Committee shares the common goal of protecting our country 
from additional terrorist attacks, and I believe we are all 
committed to achieving that goal, with complete respect for the 
fundamental freedoms of our American people. This Committee has 
an historical tradition of examining, debating and resolving 
some of the most important legal and policy issues that have 
been presented to Congress. Sometimes we get in fistfights on 
this Committee. It is one of the toughest Committees ever on 
Capitol Hill. It is always the fault of the other side, of 
course--
    [Laughter.]
    Chairman Hatch. --but through these tough times, we are 
able to do a lot of great work on this Committee thanks to 
great Senators on both sides of the dais here.
    We are, once again, faced with an important task that will 
have a profound impact on our country's security and liberty. I 
have every confidence that we are up to that task, and I have 
every confidence in every member of this Committee to put our 
country first and to do what is best under the circumstances.
    Above all, I hope everybody in the Congress and people 
throughout this country cooperate with you, as you do this very 
almost impossible job to try and keep up with everything that 
possibly could occur that can damage our country, our people, 
and of course cause a lack of optimism in this country which we 
have always had. I, personally, want to thank you for the hard 
work that you have done.
    [The prepared statement of Senator Hatch appears as a 
submission for the record.]
    I turn now to Senator Leahy.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Well, thank you, Mr. Chairman. I like your 
analogy of the fistfights. The Chairman, of course, a former 
boxer, I am just the punching bag that he works out on every 
day. But if I can serve my country that way, I do it willingly.
    Chairman Hatch. Well, I am so pleased he is willing to be 
that punching bag and serve.
    [Laughter.]
    Senator Leahy. Well, I have now for a period of time.
    I want to thank my friend, Secretary Tom Ridge, for being 
here. Actually, I also want to thank you for your willingness 
to serve your country in such a difficult position.
    We are discussing the state of our homeland security 
efforts. I worry that we see the American people uneasy about 
their security as they enter the summer traveling season. Part 
of the unease may be some of the conflicting signals they are 
getting from their Government. Yesterday, we heard from the 
Attorney General, who, 2 weeks ago, took to the Nation's 
television screens to warn all of us of an impending al Qaeda 
attack, but it had the appearance of the unilateralism that we 
have come to expect from the Attorney General's Office.
    Earlier the same day, Mr. Secretary, you had appeared on 
many of those same television screens, and you encouraged 
Americans to go out and have some fun this summer. I think the 
American people are left to doubt whether they should be 
summering in fallout shelter or living their lives the way they 
had been accustomed before the September 11 attacks. Certainly, 
I would hope that people in my State, your State and all of the 
other States could take your advice that you gave to enjoy the 
summer. We are a great and good Nation blessed with so much, 
and we should be able to enjoy that.
    But the doubts that are in the American people's minds 
stem, in part, from the administration's failure to follow the 
process that Congress mandated in the Homeland Security Act of 
2002. Under the act, the Secretary of the Homeland Security 
Department is the only person authorized to issue public threat 
warnings. And in broadcasting his own independent warnings, of 
course, the Attorney General ignored the law of the United 
States.
    And I agree with the words of Christopher Cox. He is a 
well-respected Republican Chairman of the House Select 
Committee on Homeland Security. He said, ``In the Homeland 
Security Act, DHS was assigned the central coordinating role in 
this process. The absence of Secretary Ride from the news 
conference held by the Attorney General and the conflicting 
public messages their separate public appearances delivered to 
the Nation suggests that the broad and close interagency 
consultation we expect, and which the law requires, did not 
take place in this case. The American public, State and local 
law enforcement, Governors and mayors, and private-sector 
officials with the responsibility for critical infrastructure 
all deserve crystal clarity when it comes to terrorism threat 
advisories.'' And I agree with Congressman Cox.
    I think the administration's lingering ambivalence about 
the Department of Homeland Security seems to be a residual 
byproduct even from the way the Department came about. As we 
review the administration's failure to hew to the charter of 
the Homeland Security Act, we should think about the history of 
the Department's founding. We know, of course, that the 
President initially opposed the efforts of Democrats--and we 
had been joined by some Republicans--when we asked to create a 
Department of Homeland Security. He then flipped over on the 
issue and embraced the creation of a new agency. Interestingly 
enough, timing the hurry-up announcement that he had now 
changed his mind and supported to coincide with the oversight 
hearing of Coleen Rowley, the FBI agent who accused the 
administration of negligence in its reaction to the arrest of 
Zacarias Moussaoui the month before the September 11 attacks. 
Even the White House admitted the timing was no coincidence.
    After the President's conversion, he then barnstormed the 
Nation. He campaigned against Democratic Senators like Max 
Cleland, who had, right from the outstart, had supported a 
Department of Homeland Security, but Senator Cleland wanted one 
that would respect the rights of the men and women who are 
working to keep our Nation safe.
    Well before the Department was established, the White 
House, for more than a year, ignored outright--without even a 
dialogue or an acknowledgment--the appeals many of us had made 
for implementing the provisions of the PATRIOT Act that 
authorized help to our partners in homeland security, our State 
and local first responders, the people that if something 
happens out in Utah or in Texas or in Vermont or anywhere else, 
the first people that are going to respond are not going to be 
us, here in Washington, it is going to be the first responders.
    So I would like to be able to tell Americans that, despite 
the conflicting guidance from their leaders and the President's 
history of playing politics with homeland security, that their 
Government was doing everything possible to keep them safe. We 
cannot say that today. There is much left undone in securing 
our Nation.
    And we have recently learned that a White House budget 
memorandum circulated within the administration last month 
states that if he is reelected, President Bush intends to cut 
spending for homeland security by $1 billion in his next 
budget--the first budget he will be able to submit knowing that 
he will not have to face the voters again. So, if we have gaps 
today, and we go ahead with the administration's plan to cut a 
billion dollars, there is going to be greater gaps. Apparently, 
this is because of the fiscal consequences of the tax cuts, but 
I think that we should worry first not about the wealthiest 
Americans, but worry about the safety of all of us.
    Now, I would like to share some of my most serious homeland 
security concerns, starting with the administration's failure 
to provide enough for the first responders. As the costs borne 
by law enforcement agencies across the country, in communities 
of whatever size, continue to rise, we should increase funding 
for our Nation's first responders. Instead, the President has 
proposed cutting overall funding for our Nation's first 
responders by $800 million. That will affect every State, large 
or small.
    The Hart-Rudman Report on Domestic Preparedness argued that 
the U.S. will fall approximately $98.4 billion short of meeting 
critical emergency responder needs over the next 5 years under 
the President's budget. Clearly, the domestic preparedness 
funds available are insufficient to protect our people.
    In fact, a 2003 report by the Council on Foreign Relations 
found a number of serious flaws in the preparedness of our 
first responders. They found that only 10 percent of the fire 
departments in the Nation have the personnel and equipment to 
respond to a building collapse. They also wrote that most 
cities do not have the necessary equipment even to determine 
the kind of hazardous materials they may be responding to.
    In February of last year, I introduced S.315, the First 
Responders Partnership Grant Act. I have repeatedly asked 
Chairman Hatch to mark up this bill. He has declined to do so. 
That is his choice as Chairman. But the bill would provide $4 
billion annually to support our State and local public safety 
officers in the war against terrorism. Grants would be made 
directly to State and local Governments and Indian tribes for 
equipment, training and facilities. I think it is essential 
Federal support that our law enforcement officers, firefighters 
and emergency medical services need. I think it is unfortunate 
that this Committee will not even consider it. Vote it down if 
they want, but at least consider it.
    I have raised a number of concerns in my remarks. I do not 
mean by doing that, that I am suggesting you have an easy job. 
You do not. I told you at the time you got appointed I did not 
know whether to offer you congratulations or condolences 
because of the difficult job you have.
    I am very proud of the fact that you have made yourself so 
available to members of Congress on both sides of the aisle. 
When the calls have gone out, you have not asked whether it was 
a Republican or a Democrat. You have answered. I wish the 
Attorney General would do the same, but I admire you for doing 
that.
    I think that the administration should take into 
consideration these concerns. The Chairman said all of us up 
here, it does not make any difference our party, we want this 
Nation, this most wonderful, blessed Nation to be safe. But 
simply saying we want it safe does not make it safe. And simply 
saying we are safe, does not make it so. It requires really 
difficult work, not arbitrarily cutting the budget of our 
people who have to keep us secure, but working together.
    You, Mr. Secretary, have shown a willingness to do that. 
Please bring the message back to the rest of the administration 
that you have both Democrats and Republicans who want to work 
with whomever is President to keep this country safe.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Chairman Hatch. Thank you, Senator.
    Senator Schumer. Mr. Chairman?
    Chairman Hatch. Sir?
    Senator Schumer. Thank you, Mr. Chairman.
    Before we begin, what is the schedule? I have heard that we 
are going to end this by the time the vote occurs, and some of 
us will not get to ask questions; is that--
    Chairman Hatch. No, I intend to try and follow through.
    Senator Schumer. We will come back after the vote.
    Chairman Hatch. Try to come back. But I know the Secretary 
is busy, and we are going to have to end it--
    Senator Leahy. If that happens, if we are not able to have 
all of the Senators have a chance on both sides to get the 
questions they want, could he come back, say, on Tuesday and 
continue?
    Chairman Hatch. I think we can finish it today.
    Senator Schumer. Thank you, Mr. Chairman.
    Chairman Hatch. We will do our best to do so.
    Senator Schumer. Thank you.
    Chairman Hatch. And I hope, Mr. Secretary, you can give the 
time to us. We would appreciate it.
    Mr. Secretary, we will be glad to take your statement.
    Let me just say, though, if we are going to end it, we will 
continue through the early part of the vote. Those who want to 
question are going to have to go vote and then come back real 
quickly so that we do not waste any time.
    Mr. Secretary?

   STATEMENT OF TOM RIDGE, SECRETARY, DEPARTMENT OF HOMELAND 
                   SECURITY, WASHINGTON, D.C.

    Secretary Ridge. Mr. Chairman, I would certainly be willing 
to accommodate that schedule, even if we have to wait a little 
bit to accommodate your colleagues with a Q and A.
    Chairman Hatch. We appreciate it.
    Secretary Ridge. Mr. Chairman, to you, to Senator Leahy, to 
members of the Committee, I certainly do appreciate the 
opportunity to appear before you today to discuss our progress 
at the Department of Homeland Security and our continued 
efforts working with you to help secure our Nation.
    As we all know, the tragic attacks of 9/11 required a swift 
and drastic change to our understanding of what it actually 
means to secure America. The Department of Homeland Security 
was envisioned as a means to bring together some of the most 
critical homeland security entities in the Federal Government 
under one central authority to better coordinate and to better 
direct our security efforts.
    We knew, from the outset, that our vast scope of protective 
measures had to build upon our existing strengths to more 
importantly be reconstructed in a way that unified and 
facilitated speed, openness and easy access for all of those 
involved in the hard work of securing our country every day. 
With that in mind, we have worked to build more integrated and 
coordinated homeland security, intelligence and law enforcement 
communities, communities that connect capabilities and people, 
that share information swiftly and effectively and that add 
layer upon layer of security to make our Nation safer and more 
secure.
    Knowledge is both a fundamental principle and instrumental 
resource in our efforts to secure our borders and our people. 
The Department has made widespread coordination and information 
sharing the hallmark of our approach to homeland security. 
Presidential initiatives like the USA PATRIOT Act and others 
have helped tear down the walls that prevented our policymakers 
from having the benefit of intelligence analysis that were 
based on all available information.
    As we have developed new tools for communication to share 
that information, tools that reach horizontally across Federal 
departments and agencies, and vertically down to our partners 
at the State, local, territorial and tribal levels.
    Within Homeland Security, we see communication as a two-way 
process. We collect information from the field and listen to 
what our partners need from us in order to do their jobs 
better. This means heightened awareness, better intelligence, 
wiser decisions, and improved coordination at every level of 
Government, not just within the Federal Government.
    First, we interface with all of the components of the 
intelligence community, including the Terrorist Threat 
Integration Center, the acronym TTIC, in which Homeland 
Security is a full partner in order to synthesize, analyze and 
apply information collected from thousands of sources.
    Now, let me be clear. The Department of Homeland Security 
is not in the traditional intelligence collection business, 
although many of our components collect significant amounts of 
information. We are definitely in the analysis and application 
business of that information. It is our job to turn the 
information into action and implementation. That happens 
primarily under the umbrella of the Homeland Security Advisory 
System.
    This communication tool includes not only the color-coded 
threat condition, as well as several projects such as the 
information bulletins and threat advisories that allow the 
Department to tailor specific information for specific 
recipients within the States and local communities, as well as 
the private sector.
    This communications process represents the first-ever 
centralized, integrated effort of its kind in the Federal 
Government and a vast improvement from the fragmented system 
that existed before. It not only outlines threats, but also 
recommends specific steps that can be taken to heighten 
readiness or improve physical protections. So this is much more 
than simply the dissemination of information. This is about 
achieving the right security outcome, supplying the necessary 
information and recommendations to decisionmakers on the ground 
who could then take appropriate action to protect the citizens 
of their respective communities.
    To accomplish this, we have created several new two-way 
channels of communication, including our National 
Infrastructure Coordination Center, created strictly to reach 
out and to have daily contact with the private sector, and the 
Homeland Security Information Network, created for use by 
Government entities.
    The National Infrastructure Coordination Center provides a 
centralized mechanism for the private sector, industry 
representatives, individual companies, and the Information 
Sharing and Analysis Centers--or ISACs--to share and receive 
situational information about a threat, an event or a crisis.
    The Homeland Security Information Network is a real-time 
collaboration system that allows multiple jurisdictions, 
disciplines and emergency operation centers to receive and 
share the same intelligence and tactical information so that 
those who need to act on the information had the same overall 
situational awareness.
    This year, we are expanding this information network to 
include senior decisionmakers such as Governors, statewide 
homeland security advisers and emergency operation centers in 
all 50 States, territories, Tribal Governments and major urban 
areas. And by the end of the summer, we will achieve real-time, 
nationwide connectivity, more information, more integration, 
better coordination.
    Both of these important communication networks support the 
Homeland Security Operation Center, a 24-hour-a-day, 7-day-a-
week nerve center that enables the Department to monitor 
activity across the country. This combination of new abilities 
in information sharing and improved two-way communication has 
given the Department capabilities that the Federal Government 
never had before.
    Most importantly, it means we have improved our efforts 
significantly to prevent terrorist attacks and protect 
Americans. We have emerged from a very static security 
environment into a dynamic, real-time, action-oriented system 
of layered protections of air, land and sea and constant two-
way communication with our partners at the State and local 
Government level, as well as within the private sector.
    Of course, we build layers of security designed to keep 
terrorists out. We must not forsake our National character as a 
country that is both open and welcoming to citizens of all 
lands. I know this is an issue of particular importance to this 
Committee, as it should be, and not just to members of the 
Committee, as it should be to all Americans.
    Our homeland security policies have been designed to keep 
our borders closed to terrorists, but open to legitimate, law-
abiding visitors. And programs such as U.S. Visit and One Face 
at the Border are helping us do just that.
    And while stopping a terrorist at our border is a critical 
accomplishment, we want and need to go even further. We want to 
stop them before they ever board a plane or a ship destined for 
the United States. So we are hard at work with other Nations to 
strengthen visa processes and policies at consular offices 
abroad, yet we want to do so in a way that does not place an 
unfair burden on our allies or inhibit legitimate trade, travel 
and commerce.
    An example of this is the Visa Waiver Program which allows 
citizens of participating ally countries to travel to the 
United States for business or tourism for 90 days or less 
without obtaining a visa. To strengthen the security of this 
program, participating countries are now required to issue 
machine-readable passports that incorporate biometric 
identifiers. While this will add an important layer of 
security, we have learned that the deadline originally set for 
October of this year will be difficult, if not impossible, for 
many of these Nations to meet. I must say it is not because of 
a lack of will, but due to the difficult technical issues of 
putting such a system in place and, frankly, a lack right now 
of a consensus around the technical requirements around having 
a machine-readable passport with the biometric enablers within 
it.
    Secretary Powell and I support a 2-year extension of the 
deadline to not only give us time to work out the technological 
issues, but also to ensure that the systems we build is one 
that is interoperable for all countries.
    And I might add, Mr. Chairman, you noted that as of the end 
of September this year, even the visa waiver country entrants, 
because we are hoping to get this deadline, but will be part of 
the US-VISIT program, so they will leave a digital photograph, 
as well as the finger scans, with us so we can have a record of 
their entry while we are trying to work out the technical 
differences among the countries.
    By working with our allies and assisting them with time and 
resources to get this program up and running, we not only can 
make our Nation safer, but we can also protect the vital flow, 
the critical flow of travelers to and from our shores. It is 
this kind of commitment to cooperation and partnership that has 
led our homeland security efforts from the start.
    By working with communities, citizens, business leaders, 
State and local Government officials, first responders, members 
of Congress, we have forged a course of protection defined by 
the integration of our efforts. Everyone pledged to freedom's 
cause, everyone freedom's protector because everyone is 
freedom's beneficiary. And as we move forward to secure our 
land for future generations, we must do so with constant 
vigilance against our enemies, continued commitment to each 
other and then unwavering support for the protection of our 
liberties and the preservation of our freedoms.
    I thank the Chairman, the Ranking Member, for the 
opportunity to testify and appear before you today.
    [The prepared statement of Secretary Ridge appears as a 
submission for the record.]
    Chairman Hatch. Thank you, Mr. Secretary.
    Let me just ask you this question. We all know that one of 
your primary responsibilities is gathering threat information 
and communicating with the public your assessment of the threat 
level. Now, you performed, I believe you performed this task 
incredibly well during this past December's holiday season.
    And as you know, several weeks ago, the Department of 
Justice informed the public about an escalation in the chatter 
among al Qaeda terrorist and the possibility of a summer 
attack. You and your Department were criticized for not 
appearing with the Attorney General--unfairly, in my opinion--
and for not raising the threat level.
    So I would like to give you an opportunity to respond to 
both of those criticisms.
    Secretary Ridge. Thank you, Mr. Chairman.
    First of all, I hope everyone understands that the Attorney 
General, the FBI Director and I are literally on the same page 
with regard to sharing of information. We see the same 
intelligence. We meet daily, and then our organizations, along 
with the balance of the intelligence community, meet by secure 
video twice a day. And General Ashcroft and I had a lengthy 
conversation the other day, understanding that there was some 
confusion that arose between my public comments in the morning 
and his statement in the afternoon.
    Let me make it very, very clear that we understand we 
created some confusion and that we have pledged ourselves to 
make sure that the language we use describing whatever 
information we are sharing with the public, we are going to do 
a lot better job coordinating that effort.
    It is very important to note, however, that as the two 
chief law enforcement agents within this country, as the 
Department of Homeland Security is in the business and given 
the responsibility of coordinating an administration-wide 
effort to secure America, that there will be many, many 
occasions when the Attorney General and the FBI Director will 
talk to America about the specific law enforcement measures 
that are being taken as part of a nationwide administration 
effort. I do not think there should be anything read into the 
fact that I appear or did not appear with my colleagues. We 
admit that there was some confusion that arose from that, but 
we pledge to make sure that it does not happen again.
    Chairman Hatch. Well, thank you. As you know, the 
administration has asked Congress to extend the October 26th 
deadline for biometric passports, and you have raised that in 
your opening remarks. We are dealing with cutting-edge 
technology here, and the fact is that neither the visa waiver 
countries nor the United States can comply with these current 
deadlines.
    Now, Secretary Powell has also asked the Committee to 
extend this deadline and has called me personally about it, but 
time is running out. We can, and must, turn these visionary 
scientific breakthroughs into a reality.
    Now, Secretary Ridge, what might be the national security 
implications of extending the deadline?
    Secretary Ridge. Well, first of all, I think, in the long 
term, the national security implications are substantive in the 
sense that if we can reach a technical agreement within the 
next year and then get the compliance--there certainly is a 
will there. The problem right now is technological not a matter 
of commitment--then it will have very long-term and very 
positive implications for homeland security. Our ability to be 
able to use biometrics to identify those who enter the United 
States, confirm both their identity, as well as validate their 
passport, is extremely helpful to us.
    As you well know, Senator, Congress, well over 10 years 
ago, had asked the Executive Branch to establish an entry/exit 
system. It was not until the Department of Homeland Security 
was created, and then within the Department the decision made 
was to not only create an entry/exit system, but also to 
include biometrics. That is the technology of the 21st century 
that will significantly enhance security. So it is our hope 
that Congress will give us sufficient time--our request is for 
2 years--so that these countries we can all work out to our 
mutual satisfaction the technical requirements. But while we 
are doing that, we plan on, and we have told these 27 countries 
who benefit from the Visa Waiver Program, that their citizens 
will still be subject to the US-VISIT identification, verifying 
their entrance and, as we work on the exit model, verifying 
their exit as well.
    So I think it is a very positive step. If we extend it so 
we can reach agreement on the technical requirements and, in 
the meantime, we will have them participate in the US-VISIT 
program, so we will have of a biometric identification of their 
entry.
    Chairman Hatch. Thank you. I reserve the balance of my time 
and turn to Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. You did not want to 
use your remaining 50 seconds?
    Senator Grassley. Do not encourage him.
    [Laughter.]
    Senator Leahy. Mr. Secretary, just parenthetically, when 
Secretary Powell called me about extending the biometric, and 
we probably will, I recalled some urgency in getting that bill 
signed in the first place. I wish that some of the thoughts had 
been raised I suggested to him at that time. But I also 
understand the technology, and it is very complex--digital 
photographs and digital fingerprints, and you want to get it 
right so you do not have a lot of people turned back.
    We had 100-percent certainty from the Department of Justice 
that they had the digital fingerprint of a man out on the West 
Coast, supposedly involved with the bombing in Madrid, and they 
seized all of his property, his computers, and totally 
disrupted his life, locked him up and all, and then after a 
while said, ``Whoops, now we are 100-percent certain we have 
the wrong fingerprint.'' I do not think we want to, in this 
beckoning country, to have that sort of thing going on.
    Incidently, the impression may have been given that you 
were criticized about the warning given a couple of weeks ago. 
You were not the one criticized here by Republicans, and 
Democrats and the media, it was the Attorney General who was 
criticized for stepping outside--I just want to make that 
clear--the criticism was not made of you, it was made of the 
Attorney General for stepping outside the rules of the homeland 
security law, which gives you exclusive authority to issue 
threat warnings to the public.
    Do you believe, today, that it constitutes a threat warning 
to state that, ``Credible intelligence from multiple sources 
indicates al Qaeda plans to attempt an attack on the United 
States in the next few months,'' as the Attorney General said 
in May?
    Secretary Ridge. I think not only has the Attorney General 
said that, I have said it, other members of the administration 
have said that there are reports from credible sources, the 
talk of the intent, whether it is in response to what they 
perceive to be the influence on the outcomes of the elections 
in Madrid or not remains to be seen, but there are reports from 
credible sources that indicate that that is a desire or an 
intent. There is no--
    Senator Leahy. Do you feel it was a high enough level to go 
from what you said in the morning about enjoying our summer 
to--
    Secretary Ridge. No, I do not. I do not. I mean, we are at 
an elevated level of risk. The threat is fairly substantial. 
But our job every day within the Department, Senator, there is 
the normal pace of operations, and you will understand because 
that is a requirement the Congress gave to the Department, we 
do not need to raise the threat level to continue to improve 
security and enhance protection around the country, and that is 
what we are doing every single day.
    If the intelligence dictates, and there is a consensus 
within the President's Homeland Security Council that we would 
raise the threat level, then obviously that is a recommendation 
we would make to the President, and if he agreed, then I would 
be the one to announce it. But the Attorney General and I had a 
good conversation about what transpired and admit the confusion 
that arose.
    But substantively, his piece, his discussion of the be on 
the lookout and the photographs, as well as the task force that 
he was putting together, again, was part of an 
administrationwide effort that we would be doing, and are 
doing, regardless of raising the threat level.
    Senator Leahy. So you would agree with Congressman Cox that 
the broad and close consultation that the Act requires did not 
take place in this instance.
    Secretary Ridge. In this particular instance, again, the 
consultation on the substance occurred. I knew very well that 
the Attorney General was going to talk about the BOLOs. We have 
been working with the Attorney General's office and the FBI 
about the task force. Again, it is part of the administration-
wide effort. But we also decided that not only do we worry 
about sharing information on the substance, but the tone that 
need to be projected. We need to make sure that we do a better 
job with our language, both of us.
    Senator Leahy. I am not trying to play ``gotcha'' here, but 
the American people have a great deal of--they give you a great 
deal of credibility, as I believe they should. And we cannot 
live in constant fear every day. This Nation, just as most of 
Europe and a lot of the Asian nations have for decades, we will 
face terrorist threats probably for the rest of your life and 
my life, if not from these people, from others.
    Secretary Ridge. Correct.
    Senator Leahy. We are the most powerful Nation on Earth, 
and we are not having to face, thank God, the threat of armies 
or air forces or navies coming against us because we are too 
powerful for that. But there are always going to be those who 
are going to resent us, for whatever reason, theocratic, 
political, or anything else, who will come after us. So there 
will always be a threat.
    But I would hate to think that in this great and good 
country that we are always running, cowering from that. I think 
we rely on people like you to follow those threats, do 
everything possible to protect us, wherever they come from. 
But, you know, we sometimes use too loosely this ``we are at 
war.'' I was just in Normandy over the weekend with the 
President and others. That was a war. This is a threat that we 
will always face, and we will do our best to stop it. But it is 
a lot different than the war we were at during that time when 
all of Western civilization as we know it could have 
disappeared.
    Last weekend, Defense Secretary Rumsfeld spoke in Asia 
about the war on terrorism. The Associated Press reported that 
he said that the troubling unknown was whether the extremists, 
whom he termed zealots and despots bent on destroying the 
global system of nation states, are turning out newly trained 
terrorists faster than the United States can capture or kill 
them. He said, ``It is quite clear to me that we do not have a 
coherent approach to this.'' These concerns are similar to what 
he had said in his earlier, well-publicized memo in the war on 
terror.
    Do you agree, one, that the revelations of torture and 
abuse are providing strong motivation for terrorist recruiters? 
And have you seen any evidence during the 15 months you have 
held your current posts that the number of terrorists seeking 
to harm the United States has declined?
    Secretary Ridge. Senator, I am not sure anyone around the 
world can actually put a firm figure on the number of 
terrorists that have been generated, not just in the past year 
or two but over the past 10 or 15 or 20 years, as extremist 
schools have been funded around the world and there has been a 
concerted effort within that extremist jihadist community to 
attract terrorists. I would like to think that we have made it 
certainly more difficult for them to operate with the 
destruction of much of their leadership core, at least al Qaeda 
and the difficulty we have created for them in terms of access 
to money and communication. But I don't think we should kid 
ourselves that--at the very least, I think it is better to 
think of it in terms of a more permanent condition that you 
have talked about. We are going to be dealing with this threat, 
whether it is bin Laden and al Qaeda or a successor to bin 
Laden and successive organizations to al Qaeda, for the 
foreseeable future. In my judgment, that is years and decades.
    Secondly, I think it defies common sense to suggest that 
these extremists wouldn't use the unfortunate events around the 
treatment of the prisoners to try to improve their recruitment.
    Senator Leahy. Thank you, Mr. Secretary, and I will submit 
my other questions for the record, Mr. Chairman.
    Chairman Hatch. Well, thank you, Senator Leahy.
    Senator Grassley?
    Senator Grassley. Mr. Secretary, the first point I want to 
make you can't know anything about, but I would like to call it 
to your attention and have you see if we could get answers to 
some letters by the end of the week: a March 4th letter, 
questions to the Bureau of Immigration and Customs Enforcement 
regarding money laundering; February the 12th, question to 
Under Secretary Hutchinson regarding your Department's handling 
of illegal border crossings other than Mexicans, OTMs; and July 
23, 2003, questions regarding whether the Department has 
followed recommendations from internal reports about border 
security issues, including letting a suspected terrorist under 
investigation become a citizen. I would appreciate answers to 
those letters.
    Now, my first question to you: money laundering and 
terrorist financing. Yesterday I asked the Attorney General 
what role the Department of Justice plays in identifying and 
confronting the vulnerabilities in our financial system that 
terrorists and money launderers use to finance their 
operations. What role do you believe the Department of Homeland 
Security should play in identifying these vulnerabilities? And, 
two, who should be responsible for coordinating our 
Government's response to these vulnerabilities? And how is this 
responsibility being executed?
    Secretary Ridge. Senator, the overall coordination 
responsibility rests with Justice and the FBI by specific 
direction of the President. The GAO commented just a couple of 
weeks ago on the integration of the efforts between the 
Department of Homeland Security and the FBI as it relates to 
terrorist financing.
    As you now, we inherited that traditional responsibility in 
our Department that used to reside in Treasury to go in and 
explore financial vulnerabilities within the financial services 
community. Oftentimes, the exploration of those potential 
vulnerabilities, if you follow the chain of evidence, led to 
the possibility that the vulnerability was being exploited by a 
terrorist organization.
    To make sure that we would harmonize our approach and to 
ensure that the FBI would have overall coordinating 
responsibility, we entered into a memorandum of understanding 
with the Department of Justice and the FBI nearly a year ago, 
and the GAO took a look at the relationship since that time and 
concluded that it is working very effectively. And I think that 
is a feeling that is shared by both and within both 
Departments.
    The lead responsibility for coordinating is the FBI. 
Oftentimes, our investigations, based on traditional 
responsibilities to examine vulnerabilities within the 
financial institutions, leads us into a potential terrorist 
financing investigation. We coordinate with the FBI, give them 
information. Oftentimes, we continue that investigation, 
sometimes with their support, sometimes without it. But it is 
all coordinated through the memorandum of understanding, and it 
is working quite well.
    Senator Grassley. Okay. Information sharing, I hear 
complaints--I suppose I should say continue to hear complaints 
from local law enforcement that criminal intelligence does not 
flow to them from the Federal level. I know that both your 
Department and Justice are attempting to address the problem. 
However, I am concerned that various strategies compete rather 
than cooperate with each other.
    Three questions: Which agency is the lead for sharing 
information with State and local law enforcement? How do your 
Department's and Justice's strategies fit within the national 
criminal information-sharing plan? And how does the Department 
of Homeland Security's strategy work with the regional 
information-sharing system?
    Secretary Ridge. The FBI historically, through the Joint 
Terrorism Task Forces, has had an infrastructure that dealt 
with the police and law enforcement community of not only the 
major metropolitan areas, but generally to the States and to 
the local police chiefs through that system. We have a 
compatible system that we have developed because of our need 
to--and more often than not, we coordinate our message with the 
FBI, to establish a linkage with State and local law 
enforcement as well.
    I would say in response to your question that there are 
times when, depending on the kind of information we are 
sharing, the primary responsibility may fall either to the FBI 
or to us. Generally, we work very hard to coordinate those 
messages so when they are going down either through the FBI's 
chain or through ours, we have basically signed off and feel it 
is necessary to send the same message. We don't want to be 
inconsistent, again, in delivering the message to the State and 
local governments.
    I would tell you that we are developing through the 
Homeland Security Information Network the ability to connect 
via the Internet by the end of July real-time Internet-based 
exchange of information with our Homeland Security Operation 
Centers for the 50 largest urban centers in this country. 
During the December time frame, when we went up and raised the 
threat level, we actually had that kind of connectivity with 
Los Angeles and New York City. We will have it with the 50 
major areas by the end of July, and we will have secure 
channels to pass that information by the end of the year.
    So the objective is to coordinate information, which we do 
on a regular basis. There are times when we will send out 
independent pieces of information, depending on the kind of 
information we are trying to share; some may be far more law 
enforcement-intense than what we might otherwise send out. We 
send out bulletins and advisories to State and locals all the 
time. We coordinate it with the FBI. And, again, we took a look 
at this Internet-based system, which was the Joint Regional 
Information Exchange System--JRIES was the acronym. It was 
actually something they were doing in California and New York--
and said this is a system that ought to be national, it ought 
to be hooked up to our Operations Center, and we are going to 
use it to stay in touch with the Governors, the homeland 
security advisers, the Operations Centers, and the chiefs in 
the law enforcement community in the 50 largest centers, and we 
will build out from there. But that is the goal, and that will 
be the information exchange system that we use within the 
Department.
    Senator Grassley. I have two questions I will submit for 
answers in writing.
    Chairman Hatch. Thank you, Senator.
    We will turn to Senator Kohl.
    Senator Kohl. Thank you, Mr. Secretary. A little more than 
a month ago, I wrote to you about potential security breaches 
at General Mitchell Airport in Milwaukee. An investigation by a 
local news reporter indicated problems, including the fact that 
passengers are able to easily identify Federal air marshals. In 
Milwaukee, the marshals were, or perhaps still are, required to 
show their badges and register for duty in full view of the 
general public.
    I was troubled by this security gap, and I met with Thomas 
Quinn, who, as you know, is Director of the Federal Air 
Marshals Service. I commend Director Quinn for quickly meeting 
with me, and through his cooperation I believe there have been 
some improvements. But, to your knowledge, has the situation 
been resolved in Milwaukee? And on the national scale, what 
more can we do to make the check-in process for the marshals 
more discreet, that is, a process whereby an air marshal does 
not have to report to duty in front of the very people that he 
is supposed to be protecting?
    Secretary Ridge. First of all, Senator, thank you for the 
graceful way you pointed it out to us by the letter and the 
discussion you had with Director Quinn. It is pretty clear that 
that is not in anybody's interest that we identify for all 
potential passengers who the Federal air marshals are.
    I am afraid that the condition that you reported in 
Milwaukee was not unique to other airports. We do a better job 
some places than others, and it is leading to a full-scale 
review of how we can effect the--nationwide, how we can effect 
the entrance of the Federal air marshals on to these aircraft. 
We don't want to do it in a fashion that indicates who they are 
and what their purpose for securing a seat on the flight is. So 
it is something that we are grateful you brought to our 
attention. We are doing a better job in some airports than 
others, but we are looking at a systemwide change. And as we 
effect those changes, we would be pleased to report to you, 
either publicly or privately.
    Senator Kohl. I appreciate your interest. Director Quinn 
said it was his number one priority. And usually when somebody 
of his stature and influence to be able to move the system 
indicates a number one priority, there is some reason to 
believe that there will be some action and on a fairly quick--
    Secretary Ridge. It is. And it has become--
    Senator Kohl. He, in fact, said that with respect to 
Milwaukee, he would give it particular attention. And I do not 
believe the problem has yet been rectified. And while I am not 
trying to make this, you know, into a huge, huge issue that 
needs to be taken care of this morning, I would like to ask 
whether or not I could hope to see Director Quinn give that 
airport and other airports, which, as you point out, are 
equally important, his attention.
    As you said, it doesn't make any sense to have Federal air 
marshals known to the public. It defeats in a large way the 
purpose, doesn't it?
    Secretary Ridge. Yes, sir, it does. And, again, to your 
point, it has become his number one priority as it relates to 
the FAMS and, therefore, as it relates to the FAMS, our number 
one priority in the Department. And based on his conversation 
with you and an assessment of some of the procedures at other 
airports, we have clearly determined that we need to make some 
significant improvements in that whole process. And we will be 
pleased to report you what we intend on doing and then give you 
a schedule as to when it will be done.
    Senator Kohl. I do appreciate.
    Secretary Ridge. Yes, sir.
    Senator Kohl. Thank you.
    Thank you very much, Mr. Chairman.
    Chairman Hatch. Thank you.
    We will turn to Senator Cornyn next.
    Senator Cornyn. Thank you, Mr. Chairman.
    Secretary Ridge, my questions relate to the US-VISIT 
program and implementation, but first I want to refer to the 
letter that you and the Secretary of State wrote with regard to 
the need to extend the deadline for the implementation of the 
biometric passports under the visa waiver program.
    You make some persuasive points in the letter, one of which 
I want to highlight, though. In addition to the security 
concerns, which are paramount, there is a concern that the need 
to acquire individual visas might suppress demand for travel to 
the United States with tremendous economic consequences in the 
country. The last sentence said ``possibly resulting in multi-
billion-dollar losses to our economy and reducing employment in 
one of our economy's most dynamic sectors.''
    My question with regard to the US-VISIT program is the 
implementation of that program along our Southern borders. And, 
of course, in Texas, as you know, we have about a 1,200-mile 
border with Mexico. I am sure that Senator Feinstein and 
Senator Kyl perhaps have similar concerns to make sure that not 
only that our border security is established, which, again, is 
our paramount concern--and I know yours as well--but that it be 
done in a way that does not adversely impact the economy in 
South Texas, for example, along the border, which are 
traditionally some of the poorer counties in parts of our 
State.
    Since the advent of NAFTA about 10 years ago, fortunately, 
we have seen huge economic growth in South Texas. But out of 
all of the entries into the United States--I believe INS 
inspects more than half a billion entries into the U.S. each 
year, but about 80 percent of those, as you no doubt know, are 
at land borders, and about 800,000 alone occur between the 
United States and Mexico.
    I must tell you that I have been struck by the differences 
in comprehension of life along our U.S.-Mexican border, between 
that area which I know so well and Washington, D.C., because I 
think we tend to think in global, sort of broad-brush terms. 
But, specifically, what I would like to ask for your help on--
and your staff has been very attentive to these concerns, but I 
just want to make the point with the boss. There is a 
tremendous concern about the use of the laser visa, which, 
ironically, does provide the kind of biometric identifier that 
US-VISIT hopes to ultimately accomplish for all entries, but 
with limitations on the time that non-immigrant visa holders, 
these laser visa holders, can come into the United States to 
shop and conduct business, which provides a tremendous economic 
benefit to the border region of the United States, including 
South Texas.
    So I would like to ask for your continued attention and 
cooperation and just raise this matter to your attention 
because it is a profound important issue to my State, and 
particularly the South Texas border region. And it corresponds 
precisely with the concerns that you and Secretary Powell 
raised in your letter with regard to the implementation of the 
visa waiver program.
    If you have any comments on that, I would appreciate it.
    Secretary Ridge. I do, Senator. Thank you. I can recall 
giving very specific directions within a couple of weeks after 
I came to Washington to initially serve as the Assistant to the 
President for Homeland Security, when he related the facts 
associated with making security paramount as of September 11, 
2001, at both our Canadian and Mexican borders. We made it 
paramount, and we basically shut down travel and commerce. We 
had traffic backed up for literally miles and delays that 
sometimes went almost as long as a day, if not longer.
    So it is pretty clear that along our land borders we have 
to layer in different means of identifying the people and the 
products that come across to make sure that they are legitimate 
and lawful and that the people coming across are law-abiding. 
And we began that in the Smart Border Accord where we have 
identified--pre-screened certain people, pedestrian traffic, 
people coming across in commercial traffic, pre-screened 
shipping companies and the truck drivers that bring that 
traffic across, looking at various kinds of technology to 
really apply to the border, again, as part of the layered 
effort to provide security so we can move literally hundreds of 
thousand of people across the border back and forth every day.
    One of the other things we are looking at is to extend the 
time and the distance that people with the laser visa can 
travel, which, again, is part of our effort to--we can 
legitimize they are coming over for legitimate purposes, but if 
we make them go back and forth every single day when, in fact, 
they plan on staying for two or three or 4 days, whatever it 
may be, it will reduce the pressure on the border.
    So we want to layer in different levels of security at the 
border, and we will continue to work with you and your 
colleagues on the Southern border, but as well the colleagues 
on the Northern border, to effect the outcomes that we want, 
and that is a successful US-VISIT system by the end of this 
year at the land borders, at the 50 largest land borders in 
America.
    Senator Cornyn. Thank you, sir.
    Secretary Ridge. You are welcome.
    Chairman Hatch. Thank you, Senator.
    Senator Feinstein?
    Senator Feinstein. Thank you very much. And welcome, 
Governor Ridge.
    I wanted to spend my time discussing the visa waiver 
program because I have carefully read the May 13th report of 
the Office of Inspector General, and you have got a program 
that is very sloppy and is in great disarray. It involves 27 
countries and 13 million people in 2003 that came into this 
country without a visa.
    We know that this program has been used by terrorists. 
Specifically, Richard Reid, the shoe bomber, used a British 
passport; Ramzi Yousef, the 1993 World Trade Center bomber, 
used a British passport; Mr. Moussaoui used a French passport 
under the visa waiver program; and Ahmed Ajaj used a Swedish 
passport. And this report details many others as well. So it is 
a point of maximum exposure for terrorist intrusion. The 
management is sloppy, and it goes on and on and on from there.
    I wrote you a letter last month, and I referred you to a 
specific FBI classified memo involving the thefts of large 
numbers of travel documents relating to this program. Now, the 
only reason for the theft of large numbers, well in the 
thousands, of these documents is really to sell them to people 
who want to fraudulently use them.
    The report points out that even when they find a fraudulent 
passport, the passport is returned to the individual because 
the individual has to return to their country. So that 
fraudulent passport is still out there.
    I was part of this Committee when we considered the 
timeline for the biometric passports, and we carefully 
considered it, and it has already been extended, as you know, a 
year.
    Secretary Ridge. Correct.
    Senator Feinstein. And now the October date is coming up, 
so the proposal is extended another 2 years. I am one that 
won't vote for that extension of 2 years because I believe this 
is an enormous security risk for our country.
    If the management problems can't be remedied, I am one that 
believes we should declare a moratorium on the program. And I 
know this has raised the ire of the business community, and the 
concern. But if you measure concern to concern, the concern 
about terrorist intrusion, which we know this program has been 
used exactly for that, is much greater, in my view, than the 
concern about loss of business because somebody has to get an 
actual visa to come to this country.
    We know the problem in US-VISIT. They are documented here. 
So my question of you specifically on the concerns in this May 
11th OIG report is: How much of it has been remedied? How can 
you assure this Committee that this program cannot be used as 
an entry program for terrorists?
    Secretary Ridge. Senator, first of all, I think it is 
important to note as just a matter of public record that the 
visa waiver program is not a creation of the Department of 
Homeland Security. We are obliged under an Act of Congress to 
allow these citizens from the 27 countries in without a visa. 
So if there is going to be any change in the visa waiver 
program, it would probably require an Act of Congress to do so 
since Congress set it up.
    The concerns you raise, notwithstanding the origin of the 
program, are legitimate and very much I believe the reason that 
this Committee and I think Congress generally supported the 
requirement that citizens from visa waiver countries on a 
particular date start appearing at our borders with machine-
readable passports with biometric enablers within it.
    I would share with you, Senator, that I do not believe that 
there is anything other than agreement that is growing, I think 
even internationally, that using biometrics to protect not just 
our borders but borders of other countries is something that 
the international community has begun to embrace holistically.
    It is interesting, the nature of the conversations that 
have occurred, and I have seen the evolution over the past 12 
to 18 months. The Attorney General and I just concluded a 
couple of days with our colleagues from the G-8 countries. I 
just had a luncheon with 25 Ambassadors from the European 
Union. Everyone is focused now not just on America's borders 
but the use of biometrics to secure their borders as well.
    So I would say to you that, one, we will get compliance, 
and we are hoping to get the extension, and we will push very, 
very hard to get the compliance and an agreement around the 
technical solutions. Two, in our discussions with the EU and 
the G-8, this notion of fraudulent passports and stolen 
passports was a critical part of that discussion, and we are 
working with them to use your poll as a central repository of 
information about stolen passports and trying to work within 
their law enforcement communities as well so that we get 
immediate notice of any of these lost passports.
    And as you know, one of the requirements for a country to 
continue to be on the visa waiver list is that they report to 
us as quickly as possible lost or stolen passports. And we are 
going through that whole process now.
    Senator Feinstein. Let me just respectfully interrupt you 
there.
    Secretary Ridge. Sure.
    Senator Feinstein. This report points out that even when 
they report to you the serial numbers of the stolen passports, 
you can't pick them up unless it is done manually. And I think 
that is the soft underbelly.
    Secretary Ridge. Well, again, as we develop the technology 
at our ports of entry, I would tell you, Senator, I believe we 
are transferring--we are beginning to transfer that information 
via technology. But we have turned away people at the borders 
who appeared with a stolen European passport. We do get that 
information.
    Senator Feinstein. Why don't you confiscate the passport? 
Why do you give them back the fraudulent passport?
    Secretary Ridge. Senator, I am not--on that specific 
matter, I am going to be discussing that and some other things 
with my IG this afternoon, and I am not sure that is the case 
across the board. But I am going to--
    Senator Feinstein. It is according to this.
    Secretary Ridge. I understand, and that is why I wanted to 
discuss that issue with the Inspector General to make sure that 
if that is--if that is not an aberration, that that is policy, 
then we change the policy.
    Senator Feinstein. Page 25 of the report.
    Secretary Ridge. I understand. We read it.
    Senator Feinstein. Okay.
    Secretary Ridge. He and I are going to have a conversation 
this afternoon.
    Chairman Hatch. Senator, your time is up.
    Let me just say this: This is a very significant and 
important day. They have asked that we all be in our seats to 
vote from our seats on this resolution. The vote is to begin at 
11:30, so what I would suggest is that we head over to the 
floor. As soon as that vote is over, we will come right back. I 
apologize for this interruption, but it is an important one. 
And I think by the time we go through one more, some of us 
would be late to get to the floor.
    Secretary Ridge. I understand, Senator.
    Chairman Hatch. And I think we need to show that kind of 
respect at this particular time. So, with that, we will recess 
until we can return from the floor, which I hope will be, you 
know, within a half-hour.
    Senator Specter. Mr. Chairman, before we break, may I just 
say a word of welcome to Secretary Ridge, distinguished former 
Governor of Pennsylvania, now distinguished Secretary of 
Homeland Security. Nice to see you, Mr. Secretary.
    Secretary Ridge. Good to see you again. Thank you, Senator.
    Chairman Hatch. For that we apologize to you, Mr. 
Secretary.
    Secretary Ridge. I understand, Senator. Been there, done 
that.
    Chairman Hatch. If you would like to come over with us, we 
would--
    Secretary Ridge. I have been on the other side. Not a 
problem.
    Chairman Hatch. We will recess until we can get back.
    [Recess from 11:05 a.m. to 11:45 a.m.]
    Chairman Hatch. Mr. Secretary, I am sure you have enjoyed 
this interlude. I apologize to you. I never thought it would 
take 40 minutes, but we are grateful for your patience, and we 
appreciate your being here. And we are going to try and go 
through this as quickly as we can.
    So Senator Kyl will be next, and then we will go to Senator 
Feingold.
    Secretary Ridge. Thank you. Thank you, sir.
    Senator Kyl. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, and please convey to all of the folks with whom you 
work how appreciative we are of the work that they do to help 
provide security for this country.
    I would like to return to a subject that Senator Feinstein 
raised, and others have raised, and it has to do with the Visa 
Waiver Program. And just to remind folks, if they need 
reminding, how important this program is. While we work 
cooperatively now with I believe 27 different countries to 
ensure that their citizens can gain fairly easy access to this 
country without obtaining a waiver, there are security issues 
with that as well. People like Zacarias Moussaoui, Richard 
Reid, the shoe bomber, Ahmed Ajaj, one of the 1993 World Trade 
Center bombing organizers, these are the kind of people who 
came into this country under this Visa Waiver Program. So it is 
an important program for commercial and other purposes, and yet 
there are terrorist concerns about it.
    One of the things that we asked is that a biometric 
identifier be created--we did not ask, we legislated--that a 
biometric identifier on the passports of these people be put 
into place so that we could ensure that security would be 
maintained notwithstanding the fairly lax standard with respect 
to these 27 countries.
    The State Department and your department, have asked for a 
2-year delay in the implementation of that program because of 
the inability of the other countries to come together on a 
standard that we agree with and to implement that standard, as 
I understand it.
    Tentatively, we have a hearing scheduled for next Tuesday, 
the 15th, in the afternoon. We would like to hear from somebody 
from the State Department and from Homeland Security to talk to 
us about precisely how it is that we are going to get our other 
countries, the 27 countries here, to succeed within that time 
frame in meeting our objectives--in other words, not to simply 
say we need an extension, but to come up with a plan on how we 
are going to succeed in getting the job done by the end of that 
period of time, if not before. So I will be interested in 
hearing from the State Department and from your folks about how 
we can ensure that we can get the job done and not simply have 
another delay.
    Now, you have done a lot of things in response to this IG 
report, and I want to complement you for that. I know one 
thing, and you commented on, it was the US-VISIT program. I 
have two basic questions, and let me just ask them and then you 
can take the rest of the time to respond.
    It is well and good that the VISIT program will be applying 
in this interim period of time, but of course the question is 
whether it will also apply after. And that is what I understand 
the law requires; in other words, that both the entry and the 
exit aspects of US-VISIT will apply, even after the Biometric 
Identification Passport Program is completed. I assume that is 
the case. We would like to get confirmation of that.
    Second, there were some other things in the IG report that 
raise questions about compliance with law. For example, one of 
the legal requirements is that there be a biennial review to 
evaluate each country and whether or not they should be 
maintained on the list and, as a matter of fact, a couple of 
countries have been dropped as a result of the review.
    And in the case of Belgium, they have been put on 
provisional status. But that requirement under law is not being 
routinely carried out, and we need to know whether the 
Department will be able to comply with the legal requirement 
that every 2 years the effects of the Visa Waiver Program are 
evaluated with respect to each country, specifically as to law 
enforcement and security interests.
    I note, in that regard, for example, that some of the 
countries like Belgium, and Sweden and Denmark have very 
liberal naturalization laws, which the Inspector General noted 
allows third-country nationals to obtain citizenship in as 
little as 3 years. Other countries like Ireland and Italy 
allowed derivative citizenship. And so there are good reasons 
for evaluating whether, in each case, we want to continue the 
Visa Waiver Program for these particular countries.
    And then just a final point. According to the Inspector 
General report, there is no DHS department with clear 
responsibility for the Visa Waiver Program. I do not know that 
to be the case. If it is, obviously, you are going to be 
correcting it. If that is not correct, then I would like for 
you to tell us.
    So, if you could respond generally to what I have said and 
then the specific questions, I would appreciate it very much.
    Secretary Ridge. Thank you, Senator, very much. I am glad 
we have an opportunity to come back to the question that the 
Senator from California raised because it is an important 
question, and we do deal with millions and millions of visitors 
from visa waiver countries. So I am glad to continue to explore 
not only the IG's report, but what we are doing about it, 
particularly since we are the ones that requested an extension.
    First of all, it is my belief that the US-VISIT system has 
been refined to a point where it is not inconvenient at all. It 
is very much accepted by people coming across our borders. And 
even when the countries comply with our requirement for a 
machine-readable, biometrically enabled passport, I see no 
reason why we would not want to just continue to have them 
comply with the entry/exit system. I mean, I just think it 
makes a lot of sense. Congress mandated that we come up with an 
entry/exit system, and I do not think, in light of 9/11, that 
you are going to draw an exception for anybody. And I think it 
is easily done. I think it is easily done.
    Secondly, as you know, Senator, the legislation that 
created the Visa Waiver Program initially said we ought to 
conduct a review of the status of these visa waiver countries 
every 5 years. The initial legislation was in 2000. In 2002, 
Congress said, under the circumstances, every 2 years--very 
appropriate. I do not know the Inspector General's reference to 
his data point, but that is a process of review that we are 
presently conducting and have been conducting or began 
conducting before the date of his report. But notwithstanding 
that, we will have those reviews of those countries completed 
by I believe September 30th of this year.
    To the point you made with regard to the unique qualities 
associated with the policies of 4 or 5 countries--I think you 
mentioned Belgium, Ireland, places like that--that is something 
over which we have no legislative or regulatory authority to 
include in our assessment as to whether or not these countries 
should have visa waiver status.
    Congress has been very prescriptive. They said you need to 
look at these five or six different things, and based on these 
particular components of your report, then you need to make a 
decision as to whether or not they are eligible to remain on 
the visa waiver list. I do not need to remind my colleagues, 
but the Visa Waiver Program is basically administered by the 
Department of State. Our responsibility within the Department 
of Homeland Security is the biennial review.
    And Senator Feinstein made an interesting point. I went 
back to check it--actually, I was glad to have the break--with 
regard to getting the passport, discovering that it is 
fraudulent, and then handing the passport back to the visitor. 
As I understand it, first of all, we did not set that 
requirement, and it is done on a case-by-case basis because 
some of the countries will not let the offending citizens, the 
person that tried to get into our country with a fraudulent 
passport, back into their country unless they have the passport 
with them.
    Now, the State Department has seen that as a vulnerability 
and has identified and going back on a country-by-country basis 
and saying, look, I suspect they are saying it is a fraudulent 
passport. We want you to let your citizen back, but we do not 
want to put the fraudulent passport back into circulation. So 
at least I had a little opportunity to find that information 
and share it with you.
    And then, finally, Senator, Secretary Hutchinson, who is 
the Under Secretary for Border and Transportation Security, 
really has been overseeing the visa waiver requirements that 
the legislation has imposed on us in a very, very aggressive 
way, and I would be happy to send you--we have taken a look at 
the recommendations. Some of the data points we do not think 
were particularly accurate.
    But notwithstanding that, there are things that need to be 
changed. There are things that we need to do. We are doing 
them, and it will take a lot longer than 6 minutes to respond 
to your question, but I would be happy to send back to you and 
members of the Committee an answer in writing--a recommendation 
of what we are doing. I think you will be satisfied that we 
took the report seriously and are taking action on it.
    Chairman Hatch. That would be great.
    Senator Kyl. Appreciate that very much. Thank you.
    Chairman Hatch. Thank you, Senator. We would appreciate 
having that information.
    Senator Feingold?
    Senator Feingold. Thank you, Mr. Chairman.
    Secretary Ridge, good morning.
    Secretary Ridge. Good morning.
    Senator Feingold. Thank you for coming back and spending 
all of this time here.
    Your testimony for today's hearing includes many positive 
steps the Department has taken to keep America safe. However, 
as you are aware, the administration has continued to place a 
tremendous burden on our Nation's first responders, many of 
whom work in law enforcement. The administration has again 
proposed slashing many of the most critical law enforcement 
programs like COPS, Byrne grants and local law enforcement 
block grants.
    As it has in previous years, the administration's current 
budget proposal would consolidate several law enforcement grant 
programs into one program--the Justice Assistance Grant 
Program. The request for the Justice Assistance Grant Program 
is $284 million less than is currently appropriated for these 
programs with regard to the time when they continue to be 
separate.
    In addition, the administration has proposed a $1-billion 
cut in the Homeland Security Grant Program from the fiscal year 
2004 appropriations and $250 million from the Fire Act grants. 
These grant programs are essential in providing funds to our 
first responders, police officers, ambulance drivers, doctors, 
nurses, fire workers and EMT workers, and I do oppose these 
dramatic cuts.
    I believe we need to do more, not less, to support our 
first responders if we want them to be successful. There has 
never been, obviously, a more critical time for adequate 
resources, specialized training, and sufficient equipment for 
first responders. Local law enforcement, fire departments and 
community organizations in Wisconsin have repeatedly expressed 
to me their need for upgraded equipment so they may better 
communicate, especially in times of emergency.
    Mr. Secretary, do you support these proposed cuts, and how 
can this administration justify these repeated attempts to cut 
assistance to those who put their lives on the line for the 
rest of us day in and day out?
    Secretary Ridge. Senator, first of all, I think you know 
that we have about $8 billion in the pipeline, and right now we 
are working, frankly, with your State and all of the other 
States and the territories to break the logjam that has I think 
frustrated the immediate disbursement of these dollars. That is 
a real challenge we have, and I think we can find some ways to 
get the dollars that you have appropriated out. That has been 
part of their frustration.
    Secondly, Senator, the President, in his 2005 budget, 
requested, in the aggregate amount, the same amount of money he 
requested in the 2004 budget. And the reductions that you refer 
to are the difference, by and large, between what the President 
requested in his 2004 budget and what Congress decided to 
appropriate.
    It is an interesting challenge that executives have. I had 
the same experience when I was Governor. There were certain 
programs that I knew that, regardless of the baseline, the 
legislature would probably add a few dollars onto it. And in 
trying to control the budget, oftentimes I just went back to 
the number in the preceding year, anticipating that there would 
probably be some increase in the following year. But I just 
wanted to dispel the notion that there has actually been a cut.
    I think if you take a look at the aggregate in 2005, while 
the President did not request in his budget the dollars that 
Congress ultimately appropriated, the line items for most of 
those are precisely the requests in 2004. We will, whatever 
Congress chooses to do with those line items, add, subtract or 
shift, we will obviously deal with.
    But right now I would tell you one of the biggest 
challenges we have, Senator, is getting a couple of billion 
dollars that seems to be cut in between the States and the 
locals distributed to your colleagues in your State and 
around--we have got a real solid group of people working on 
some very specific recommendations which we hope to have--no, 
not hope--we will have delivered to me by the end of June.
    We still have a couple billion dollars out there that some 
of the mayors and the Governors have legitimately expressed 
some public concerns about. It is not the Federal Government. 
You told us get ready to allocate that money within 45 days. We 
are ready to write the checks, but there is a maze of different 
ordinances, laws, depending on the different States. So we will 
continue to work on that and hopefully improve the flow of 
those dollars.
    Senator Feingold. I hate to interrupt you, but I have very 
limited time.
    Secretary Ridge. I am sorry.
    Senator Feingold. Just a couple of points.
    First of all, I can tell you that, at least with regard to 
the Byrne grants, and I do understand the role an executive has 
to play in trying to budget, but it is not a useful exercise to 
have the administration propose cutting this each time and then 
having to go around and say how terribly important the Byrne 
grants are for local law enforcement. This is one at least 
where the administration should just acknowledge the tremendous 
support for the program.
    Let me also say I know there are some pipeline issues in 
some parts of the country. But in my State, our experience has 
been that our people know how to take the fire grants and take 
the resources for first responders and use them very, very 
effectively. So I do not want our people painted with that 
brush, and I think, frankly, States that show that they are 
able to use the money efficiently should be acknowledged in 
that regard. And I think it is very important for the safety of 
the people in my State, as well as the people in the country.
    Secretary Ridge. Senator, I appreciate the correction. 
There are some States that are doing a lot better job of 
getting the dollars out the door, and it is those best 
practices that we want to share with the other States. I 
apologize for that. I did not mean to paint everybody with the 
same brush.
    Senator Feingold. Fair enough. As you may know, Senator 
Lautenberg has introduced a common-sense piece of legislation, 
Senate Bill 921, the State and Local Reservist First Responders 
Assistance Act of 2003. I have cosponsored the bill. It would 
authorize the Secretary of Homeland Security to make grants to 
reimburse State and local Governments and Indian tribes for 
certain costs relating to the mobilization of reserves who are 
first responder personnel.
    Under the bill, grants can be sought to replace reservists 
who serve six or more consecutive months of active duty. The 
administration's decision to extend the deployments of our men 
and women who are serving in these situations is obviously 
understandable, but I am wondering what your reaction would be 
to this sort of a piece of legislation.
    Secretary Ridge. Senator, I cannot give you a public 
reaction, but would be happy to once I took a look at the 
legislation. As a former Governor, I appreciate the direction 
the legislation goes, but I do not have a position one way or 
the other. I would be happy to review the legislation and share 
it with you.
    Senator Feingold. I look forward to it.
    I thank you, Mr. Chairman.
    Secretary Ridge. Thank you.
    Chairman Hatch. Yes, Senator.
    We will go to Senator Schumer now.
    Senator Schumer. Thank you, Mr. Chairman.
    I want to thank you, Mr. Secretary. As you know, we go back 
a long time. I have tremendous respect for you. But I have to 
tell you the frustration in New York at these funding formulas 
is just through the roof--bipartisan frustration, mayor, 
Governor, myself, our whole delegation. And so I have to ask 
you some questions about it.
    Secretary Ridge. Please.
    Senator Schumer. When we have talked, you have always been 
very positive, but so far nothing has happened, and that is the 
problem.
    First, on the State Homeland Security Grant Program. This 
was from the PATRIOT Act originally.
    Secretary Ridge. Correct.
    Senator Schumer. This was DOJ. The act mandated a .75-
percent State minimum. That means about 40 percent of the money 
went out by formula, and New York and Wyoming got the same 
amount of money. But then we granted the Executive Branch the 
ability to give out the money, the rest, the 60 percent any way 
they wanted. And DOJ decided to do it on a per-capita basis, 
compounding the problem because we all know that high-need 
areas should get this money if it is not going to be just pork. 
I know everyone has a problem. That is why we have a set for 
everybody.
    You have never said a thing on this. Do you think the 
formula should be changed? It is now something that you would 
have a lot of say over because this occurred before your 
department. We have not seen any real leadership on that. It 
results in New York getting $5.47 per capita, Wyoming getting 
$38.31 per capita.
    Secretary Ridge. First of all, Senator, I have said 
publicly, time and time again, I do believe that every State, 
regardless of the size, regardless of the population, 
regardless of the risk, should receive from the Congress some 
financial support to build up, over a period of time, the kind 
of infrastructure that we are trying to build up nationwide.
    But I think the President's budget reflects, in a very 
dramatic way, when we have shifted, I think, if I recall 
correctly, about $700 million from the pot that would have been 
distributed simply based on the formula over to the Urban Area 
Security Initiative is where we think most of those dollars 
should go.
    Senator Schumer. Yes, I will get to that in a minute, but I 
had--I understand that.
    Secretary Ridge. We have tried to work, recognizing having, 
because we do go back such a long time, trying to work out a 
formula with 535 members of Congress in terms of how you 
distribute those dollars. We have been up here talking and 
working on it. We have not been able to find the magic formula 
yet, Senator, but we do think more money should go to high 
urban areas.
    Senator Schumer. Would you support changing, though, these 
grants away from a per-capita basis, the 60 percent in your 
discretion? If you could give me a yes or no on that because I 
have two more questions, and we have limited time.
    Secretary Ridge. I will support whatever formula, within 
existing fund, puts more dollars into an urban area, but how 
you go about making sure that everybody gets a certain amount 
of money--
    Senator Schumer. But, sir, this is done per capita. You 
made the--your administration, not Congress--made the decision 
that 60 percent should be per capita. That sends a State 
without any rural areas getting the same exact amount as to--I 
mean without any urban areas--the same amount of money per 
capita as a highly urbanized State. It contradicts what you are 
saying here.
    Secretary Ridge. But in the aggregate, Senator, in the 
aggregate, what these smaller States receive, in comparison to 
what the large urban areas receive, as I said, there is a stark 
contrast. And all I am saying to you is--
    Senator Schumer. There is not, not on this formula.
    Secretary Ridge. Not on the per capita. I understand that. 
I have not been able to come up with a formula that gets 218 
votes in the House or 51 votes in the Senate in order to get it 
done, and as soon as I--
    Senator Schumer. In all due respect, sir.
    Secretary Ridge. --as soon as I do, I will make the 
proposal.
    Senator Schumer. With all due respect, we have not heard a 
peep. When we tried to lobby this last year, we did not hear a 
peep out of the administration about what they wanted, how to 
change it, et cetera. It is not, frankly, that you failed to 
persuade Congress. You have not attempted to persuade Congress. 
You sort of let it happen.
    But I am going to ask a second one. This is on the High-
Threat Urban Area Fund and which you mentioned. We had set 
aside some money for high urban funding and, again, before you 
were there, Mitch Daniels was sort of the guy in charge, and I 
negotiated with him that. And he had promised me that this 
would go to the high-threat areas. And the first year it did. 
Of the $800 million, New York City got $160 million.
    In 2004, the next round, you gave it out to 50 cities and 
30 transit areas, and New York's share dropped to 9 percent. 
That was on your watch.
    Secretary Ridge. Right.
    Senator Schumer. Different than the previous year.
    Secretary Ridge. Correct.
    Senator Schumer. And do you think that New York's threat 
percentage went down so much that New York, relative to the 
rest of the Nation, became so much safer? For New York City, 
which has been the focal point, the only two international 
major terrorist incidents have had in this country have been 
aimed at New York City, for New York City to get 9 percent of 
that is a disgrace, and that was again totally--that had 
nothing to do with Congress. That was totally your discretion.
    And so I would ask you to comment on that, and then I am 
going to ask you just on two other things because my time is 
running out.
    Secretary Ridge. Sure.
    Senator Schumer. There are two bills in the House. One is 
by Young and Latourette. It continues to give homeland security 
funding on a per-capita basis regardless of threat of 
terrorism. That is the Latourette bill.
    And it also, an amendment--that is the bill in the 
Transportation Committee. It also allows these homeland 
security funds to go to all hazards--tornadoes and fires. There 
is an alternative bill that Congressman Cox has put together 
which directs them on the real basis of need. What is the 
administration's position on, A, the transportation bill, the 
per-capita bill; B, the Cox bill, which is the Energy and 
Commerce bill, which is on need; and, C, the provision that 
allows this money now, which is supposed to go to homeland 
security, to go to tornadoes and forest fires?
    Chairman Hatch. Senator, your time is up, but if you would 
answer the question.
    Secretary Ridge. I would like to, Senator, and I am not 
trying to avoid a public answer. I need to get back to you 
because I do not believe we have a--we have been working with 
Congressman Cox on the formula, but we have not come up with a 
position on either measure, but I will get back to you within 
24 hours to tell you specifically what we are doing.
    Senator Schumer. And with a position, I hope.
    Chairman Hatch. That would be great.
    Senator Durbin?
    Senator Schumer. Because the problem, if I just might, Mr. 
Chairman, is the administration says they are for good things 
and never takes a position on any of these things.
    Secretary Ridge. And I just did want to say, Senator, we 
have, on both occasions, whether it was on somebody else's 
watch or our watch, recognized the importance, and the 
vulnerability, and the sensitivity to New York City's needs. I 
think, over the past 2 years, they have received twice as much 
as any other city.
    Senator Schumer. Nine percent. Do you think 9 percent is 
fair, when we received 20 percent the year before?
    Chairman Hatch. Let him answer the question.
    Secretary Ridge. It is in excess of $300 million, and they 
would be the primary beneficiary where they would benefit more 
than any other city if Congress would accept the President's 
proposal.
    And if you can keep the funding formula per capita, the 
argument is diminished substantially, if you reduce that pool 
and keep the formula, which would probably be the easiest 
political solution, and just reduce that pool and take 
substantial dollars over and put it in the Urban Area Security 
Initiative Program. And, again, the city that is at the top and 
the city that will get proportionately more than everybody else 
is New York City because of population density, because of 
critical infrastructure.
    Senator Schumer. I would just say, in conclusion, it is not 
even close to the needs, and it is not a fair formula. No one 
thinks it is, and we need your voice and your activity on the 
Hill, which we have not seen thus far.
    Chairman Hatch. Senator Durbin?
    Senator Durbin. Thank you very much, Mr. Chairman.
    Governor Ridge, thank you for being here today and for your 
service to our country.
    We spoke briefly before about the interoperable information 
systems, which has been an issue of concern. I met with your 
chief information officer, Steve Cooper, on March 3rd. He 
really was impressive. I think things are moving the right 
direction.
    In your appropriation bill, I asked for a report. I am sure 
you are always glad to have a request from Congress for a 
report. If you would be kind enough to take a look at it and 
ask your people to respond, I would appreciate that very much.
    Secretary Ridge. Sure.
    Senator Durbin. If I could ask you two specific areas.
    One of your responsibilities now, of course, with the new 
consolidated department, is in the area of immigration. There 
is only one immigration reform proposal that has been reported 
to the floor in the 108th Congress, and it came from this 
Committee. And it relates to a measure known as the DREAM Act, 
which Senator Hatch and I are co-sponsoring. It passed from 
this Committee on a 16-to-3 vote, and it relates to providing 
immigration relief to a select group of students of good moral 
character who want to pursue college education or military 
service for example.
    This bill has a lot of support, 48 sponsors and cosponsors, 
but the administration has not taken a position on it. Do you 
know what the administration position is on the DREAM Act?
    Secretary Ridge. I think you just told me officially there 
is none, but I would prefer to have the opportunity to review 
it myself and get back to you, as I have tried to do with some 
of your other colleagues on some of the other pieces of 
legislation.
    Senator Durbin. If you would, please.
    Secretary Ridge. Sure.
    Senator Durbin. I have certainly had a lot of differences 
with this administration, but I have publicly saluted the 
President for raising the immigration issue, a difficult, 
difficult issue, but one that we cannot ignore. And I think 
Senator Hatch and I have found a reasonable way to deal with a 
specific group of young people who will make a great 
contribution to America given that chance. So I hope that you 
would ask the President when you see him and get back to me. 
That would be very helpful.
    Now, I want to speak to an area that is a little more 
controversial--the Special Registration Program. That 
explicitly targeted Arab and Muslim males, requiring them to 
register with your department.
    Secretary Ridge. Right.
    Senator Durbin. The Justice Department created the program. 
You inherited it. We found that singling out a large group of 
Arabs and Muslims, it turned out that the vast, overwhelming 
majority of them were innocent people and really did not, that 
effort did not help in our efforts to combat terrorism. We, in 
doing so, though, have alienated a very important community of 
people in our country.
    Due to inadequate publicity, and misinformation from the 
Department of Justice, many of those who were supposed to 
register did not or registered late. More than 83,000 people 
have registered so far. Almost 14,000 have been placed in 
deportation hearing proceedings because of this. Many were here 
in the country legally and are being deported simply because 
they failed to comply with all of the requirements of special 
registration.
    Over the past year-and-a-half a lot of people have 
expressed concerns about this program. I wrote to you on 
January 23rd to ask a number of questions about this program. I 
think this program has failed us, in terms of making America 
safer, and in fact has created an undue hardship on innocent 
people. Will you terminate the Special Registration Program?
    Secretary Ridge. Senator, first of all, because you h v 
paid very close attention to the program, you know that it was 
our department that did inherit it, but eliminated the 30-day 
call-back and the annual review. And I would tell you that we 
are presently, because we now have a good and a robust entry/
exit system, we think our long-term goal should be to treat 
everybody the same way as they come across our borders, not 
targeting anyone.
    And so we are looking at some of the changes, some of the 
adjustments we made to visa policy and some of the adjustments 
we made immediately after 9/11 to see the impact of that. And 
one of the areas we are looking at very, very carefully is 
what, if anything, we should do to either modify or eliminate 
the NSEERS program--that is what you are talking about--with 
the goal being that regardless of the country of origin, 
regardless of ethnicity, you will be treated, when you come to 
our borders, you will be treated the same way. And that review 
is ongoing.
    It would be my intention to make some recommendations not 
only on that, but other areas of visa policy, to the 
administration within the next 35 to 45 days. And once that 
review is completed, I would be happy to, either by phone call 
or by visit, to tell you what we intend to do about it.
    We share the same goal. If you come to the United States, 
we are an open, welcoming country. We benefit from that kind of 
openness, and we all know the enormous benefits which treat 
everybody the same way. In order to do that, we have to make 
some adjustments to things that we did right after 9/11, for 
which we are not going to make an apology, but it is time to 
look at them and see if they really served the purpose for 
which they were intended, with the goal being one policy 
applied universally regardless of country of origin.
    Senator Durbin. That is a fair standard, and I think it is 
one that all of us would applaud. And I commend you for 
aspiring to that goal in a timely fashion.
    I would ask you, as you take a look at this program, that 
you pay special attention to several things. Individuals who 
are under this Special Registration Program can still only 
leave the United States from certain points of departure and 
have to register their departure with an immigration officer.
    And I guess the most troubling aspect is that there were 
many who were placed in deportation proceedings, and face 
deportation, not because they were here illegally, but simply 
because they either registered late or failed to register under 
the terms of the program.
    I think I detected in your remarks the notion that perhaps 
there were decisions made soon after 9/11 which we can now 
reflect on and say, all right, now, we were doing those in our 
best efforts to make America safe. Some achieved their goals, 
some did not. Now, let us be honest about those that did not 
and not punish people if we created a program which, in effect, 
has led to their deportation or some punishment that they did 
not deserve.
    And I hope, when you take a look at it, you will take a 
look at that particular aspect.
    Secretary Ridge. I will.
    Senator Durbin. Because I think that is a hardship that we 
ought to try our best to alleviate.
    Secretary Ridge. I think it makes very good sense for us 
to, on a regular basis, review what we do in terms of our 
borders, with an eye toward always enhancing security, but that 
the outcomes we hope to achieve, the benefits we hope to 
achieve, did we actually realize them? Again, that is tied to 
the larger goal of we have historically been as open, and as 
welcoming, and as diverse a country as there is on the face of 
the earth, and we do not want to let the terrorists change that 
rather unique, extraordinary quality of America.
    That is why the goal, as we review the adjustments we made 
in a post-9/11 world, is to bring back that universality of 
application of whatever the policy might be.
    I would be pleased to reflect on both these particular 
elements in that review process.
    Chairman Hatch. Thank you.
    Senator Durbin. Let me say, in closing, Mr. Chairman, 
Governor, thank you for your hard work and your accessibility. 
I know there are some who are troubled by Congressional 
meddling in your Executive Department, but you have been 
patient, to a fault, and submitted to questions time and again. 
It makes a real difference. And I think it increases the 
confidence level and the level of dialogue, and I think that is 
very important for our country.
    Thank you.
    Secretary Ridge. Thank you, Senator.
    Chairman Hatch. Well, thank you, Mr. Secretary. We really 
appreciate your taking the time. You have been very patient and 
especially with that delay, but it was in honor of former 
President Reagan, and I think we all understand that. But you 
were very gracious about it, and I personally appreciate it. 
And I appreciate the way you have answered all of the questions 
here today, and I appreciate the terrific job you are doing. It 
is almost an impossible job to do it completely, but if anybody 
can, you can, and we are very grateful to you.
    With that, we will recess until further notice.
    Secretary Ridge. Thank you, Senator.
    [Whereupon, at 12:39 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]


[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

                                 <all>

</pre></body></html>
